      `U.S. Department of the Interior
           Office of Inspector General




Framework Needed to Promote
    Accountability in Interior’s
         Grants Management
                                 August 2005
               Report No. W-IN-MOA-0052-2004
       The framework represents a holistic approach to grants management that would
include initiatives already underway in this area by Interior’s Federal Assistance Working
Group, which is chaired by your office and consists of representatives from Interior
bureaus. We believe that this Group, in conjunction with the Office of Acquisition and
Property Management, is the appropriate organization to assess and implement, as
applicable, the actions suggested in this report.

       We appreciate the cooperation shown Interior bureau staff during our evaluation.
A response to this report is not required. However, if you have any questions regarding
the report, please call me at (202) 208-5745.

Attachment




                                            2
                                                                                                                                   Page

Grants Management ...........................................................................................................1
    The Challenge ...............................................................................................................1
    Interior Efforts to Date.................................................................................................2
    Needed Actions............................................................................................................3

A Framework for Excellence ...............................................................................................5
    Producing Reliable Data ..............................................................................................5
    Soliciting Competition .................................................................................................6
    Monitoring Grants Effectively .....................................................................................7
    Writing Effective Grant Agreements .........................................................................10
    Providing Adequate Training......................................................................................11
    Streamlining Policies and Procedures.........................................................................13
    Establishing Measurable Goals...................................................................................13
Conclusions .......................................................................................................................14

Appendices
    1    Objective, Scope, and Methodology................................................................17
    2    References........................................................................................................21




Abbreviations
BLM ....................................................................................................Bureau of Land Management
BOR...............................................................................................................Bureau of Reclamation
CFDA .................................................................................Catalog of Federal Domestic Assistance
CFR ...................................................................................................... Code of Federal Regulations
DM ..................................................................................................................Departmental Manual
EPA ............................................................................................. Environmental Protection Agency
FAADS.............................................................................. Federal Assistance Awards Data System
FFMIA.................................................................Federal Financial Management Improvement Act
FFS ............................................................................................................ Federal Financial System
FWS............................................................................................................. Fish & Wildlife Service
GAO ...........................................................................................Government Accountability Office
MMS.................................................................................................Minerals Management Service
NPS..................................................................................................................National Park Service
OIG.............................................................Office of Inspector General, Department of the Interior
OMB........................................................................................... Office of Management and Budget
USGS............................................................................................. United States Geological Survey
U.S.C. ..................................................................................................................United States Code
                           In recent years, grants management has come under increased
                           scrutiny as Congress, GAO, and federal agencies have sought to
                           improve accountability for the millions of dollars in federal
                           financial assistance awarded to various public and private entities1
                           each year and ensure that these funds achieve the desired results.
                           Financial assistance now accounts for about 21 percent of total
                           annual federal expenditures. In fiscal year 2003, grant awards
                           totaled about $441 billion out of over $2 trillion in federal
                           expenditures (Figure 1).

                                                                          Salaries and
                                                        Other Direct     Wages, $210.7
                                                      Payments, $446.1      10.2%
                                                          21.6%                       Procurement
                                                                                    Contracts, $327.4
                                                                                         15.9%
                                                   Retirement and
                                                  Disability, $636.2
                                                       30.9%
                                                                                      Grant Aw ards,
                                                                                         $441.0
                                                                                         21.4%
                                So urce: U.S. Census B ureau




                                                                                                        Figure 1

                           The scrutiny on grants management reflects the movement toward
                           results-oriented policies that emphasize improved government
                           services and efficient stewardship of public resources. The 1999
                           Federal Financial Assistance Management Improvement Act
                           (Public Law 106-107),2 for example, mandated simplifying grants
                           application and reporting procedures for improved performance of
                           federal grants programs. The 1993 Government Performance and
                           Results Act emphasized performance-based management to
                           measure and sustain high performance and make government more
                           accountable. Likewise, strategic planning at Interior has focused
                           on activities that achieve results and foster increased value and
                           accountability to the American public.

1
  Grants are awarded through federal departments to such entities as governments, universities, non-profit
organizations, businesses, and individuals.
2
  113 Stat. '1486


                                                               1
                                                             In keeping with Interior’s emphasis on better
                                                             stewardship, the Assistant Secretary for Policy,
Interior awarded an estimated $4.5 billion                   Management and Budget asked us to include a review
in grants in fiscal year 2003. Of this                       of the accuracy and reliability of grant financial and
amount, $3 billion was managed by State,                     program information in our evaluation of grants
Native American and other government
                                                             management within Interior. Although Interior has
recipients, and $1.5 billion was managed
by Interior bureaus from grant application                   not identified grants as a Department-wide problem,
through close-out.                                           grants accounted for nearly a third of Interior’s
                                                             $13.9 billion budget in fiscal year 2003.
                $4.5 Billion Awarded
                 in Fiscal Year 2003
 Non-Profits,
  Counties,                                States, Tribes,
    Cities,                                  and Other
 Individuals,
  and Other
                                           Governments       As presently administered, Interior’s grant programs
   Entities         $1.5
                    billion
                                                             do not ensure that federal dollars are used as intended,
                                 $3                          promote fair treatment for both grant applicants and
                                 billion                     recipients, or reduce the risk of fraud, waste, and
                                                             abuse—conditions that limit rather than promote the
                                                             public participation and benefit in grant programs
                                                             intended by Congress. We attributed these conditions
                                                             primarily to the decentralization of the grants process,
We focused on the $1.5 billion managed by                    which allows bureaus to manage their programs
Interior bureaus to determine whether they
                                                             without sufficient controls and fails to provide an
 promoted public participation and benefit
      when awarding grants. We evaluated
                                                             overall Interior vision.
92 grants awarded during fiscal years 2001
  to 2003 by BOR, NPS, FWS, and USGS.                        An Interior Federal Assistance Working Group is
                                                             participating in several government-wide interagency
                                                             work groups and other forums 3 to address grant
                              Estimated
                    No. of     Dollars                       management issues within Interior. Group
      Bureau        Grants    (millions)                     accomplishments to date include an initiative to
      BOR            10         $2.4                         develop a grants training program with the
      NPS            22         11.8                         Department of the Interior University, creation of a
      FWS            54         12.9
                                                             Best Practices Team to share and implement best
                                                             practices across federal assistance programs, and
      USGS            6           0.5
                                                             work on a common electronic portal at Grants.gov for
      Total           92        $27.6                        grantees to find and apply for Interior grant programs.
                                                             These initiatives, while advancing grants management
See Appendix 1 for a detailed discussion of                  in the right direction, are not sufficient alone to
our scope and methodology.                                   correct the deficiencies identified during our
                                                             evaluation.




                3
                 Forums include the Inter-Agency Electronic Grants Committee, the E-Grants Technology Demonstration
                Review Team, and the E-Grants stakeholder meetings.


                                                                      2
A framework is needed for holistic management of grants within
Interior. We developed such a framework, based on our
knowledge of government operations and systems and on audits
conducted by our office, other Inspectors General,
and GAO. This framework encompasses seven key processes,
which we identified as essential to effective grants management.

In our research of best practices related to grants management, we
did not find a holistic approach to grants management in other
government agencies, but did identify several promising practices
in both the governmental and non-governmental sectors. We
incorporated these practices into our suggested framework as
appropriate.




                     3
This Page Intentionally Left Blank




                4
                             The seven processes comprising this
                             framework describe the internal
                             controls necessary to effectively
                             manage grants and create a culture of
                             accountability and stewardship for
                             grants programs within Interior. The
                             framework is generic in that it
                             embodies the core principles and
                             guidance critical to the successful
                             implementation of any management
                             system. Where applicable, we included
                             promising management practices
                             identified by other entities. We believe
                             that implementation of this framework
                             would not only provide effective grants
                             leadership within Interior but also could
                             position Interior as a best practice for
                             the rest of government.




Grants data generated by Interior’s information systems were
unreliable. Without extensive reconstruction of records, we could
not determine the amounts obligated or expended annually for
grants or the grant recipients. We traced the source of the
unreliability to (1) the lack of an integrated system that managed
both financial and program information for grants and (2) the lack
of or inaccurate entries of grant obligations into two computerized
systems—Interior’s Federal Financial System (FFS) and the
Federal Assistance Awards Data System (FAADS), a database
maintained by the U.S. Census Bureau.

Bureaus use alternative information systems in lieu of integrated
financial and program information. This necessitates the manual
entry of transactions and increases the potential for error. In
addition, data cannot be tracked across systems. For example, we
could not find obligation information in FAADS for about
38 percent of the grants reviewed and noted a $253 million
difference in gross obligation summary data between FFS and
FAADS over a 3-year period. We attributed the difference to the
failure to enter data or inaccurate data entry.


                      5
Interior recognizes the deficiencies in its data collection systems.
In a January 16, 2003 memorandum, the Assistant Secretary for
Policy, Management and Budget stated:

    The Department relies heavily on data to provide or
    improve services, evaluate programs, and support
    decision making. . . . We cannot expect to make
    prudent decisions and manage well if we are
    indifferent to the credibility of the data used to support
    our management actions. . . . Accurate and reliable
    information is essential.

Interior is also implementing a new automated, integrated
Financial and Business Management System. The system will
include a grants management module. However, complete and
accurate entry of data will be essential to ensure the effectiveness
of this module.


To ensure the production of reliable data from Interior’s current
systems and the new integrated system, we urge the Assistant
Secretary for Policy, Management and Budget to establish:

   ¾ Processes, such as edit checks, analytical techniques, and
     reconciliations, to ensure complete and accurate entry of all
     grant financial and program information,

   ¾ Mechanisms to detect and correct inaccurate grant financial
     and program information.




Interior’s grant managers and administrators did not solicit
competition to the greatest extent possible. Congress encourages
competition (31 U.S.C. 6301.3), as does Interior (Part 505,
Chapter 2.11 of the Department Manual (DM)). Chapter 2.11 also
states: “Bureaus and offices shall establish procedures for ensuring
competition when awarding discretionary grant agreements . . . in
consonance with program objectives.”

Of the discretionary grants evaluated, nearly half were not awarded
competitively. For example, noncompetitive grants were often
awarded as “sole” source; that is, on the presumption that the
desired results could be obtained only from a specific source.




                      6
Interior employees told us that they did not always solicit
competition because it was time-consuming, expensive,
burdensome and that existing grantees had already proven to be the
best at delivering the goods or services identified in the grants.


     Source                                    Practice
Department of         ►The Department’s Natural Resources Conservation
Agriculture           Service policy makes exemptions to competition the
                      exception, not the rule.
Department of         ►The Department’s National Institute of Health makes a
Health and Human      weekly guide for grants policies, guidelines, and funding
Services              opportunities available to the public via e-mail.
Department of Labor   ►The Department’s Veterans Employment and Training
                      Service regulations require 80 percent of funds to be
                      allocated competitively.
Environmental         ►All noncompetitive awards for applicable assistance
Protection Agency     programs must be agreed to by the Grant Competition
                      Advocate.
                      ►Final decisions for noncompetitive awards must be
                      posted on the grants competition Web site.
National Research     ►The Council cites fairness as the keystone of any
Council               successful competitive grants process and encourages
                      soliciting applications from as wide a variety of applicants
                      as possible to ensure fairness.



To broaden public participation, we urge Interior to require:

¾ Bureaus to develop or update their procedures to comply with
  the intent of DM 505, Chapter 2.11 and to list all discretionary
  grants in the Catalog of Federal Domestic Assistance (CFDA),
  a listing of current federal assistance programs available to the
  public on the CFDA Web site, and other electronic sites as
  applicable.

¾ Awarding officials to justify all noncompetitive grants, with
  justifications reviewed at a level above that of awarding
  officials, such as the Environmental Protection Agency’s Grant
  Competition Advocate.




Over half of the monitoring officials we interviewed lacked an
understanding of their stewardship responsibilities over federal
funds; specifically, the commitment to ensure the use of grant
funds for their intended purposes. Monitoring officials, in fact,


                       7
often did not complete the most basic monitoring step—that of
requiring grantees to submit performance and financial status
reports. Of the grant files evaluated, nearly half did not contain the
performance and financial status reports required by the Code of
Federal Regulations (Parts 12.951 and 12.952).

This lapse in monitoring was noted in a July 22, 2003
memorandum from the Deputy Assistant Secretary for Budget and
Finance, which emphasized the importance of the timely
submission of financial status reports, their use in determining
whether grant requirements were met, and the need to address past
due reports. Interior’s independent financial auditors likewise
focused on the need for timely submission of reports and
developing controls to monitor grantees, as reported in the Fiscal
Years 2003 and 2004 Annual Reports on Performance and
Accountability (see Appendix 2).




                      8
     Source                                    Practice
Department of         ►The Department’s National Telecommunications and
Commerce              Information Administration established on-line grants
                      management and performance reporting systems to help
                      grantees and program officials document project start-up,
                      operation, and progress and measure the effect of grant
                      projects on the public. These systems are also valuable
                      tools in helping grantees assess and monitor their own
                      effectiveness.
Department of         ►The Department’s Health Resources and Services
Health and Human      Administration conducts about 500 performance reviews
Services              each year to ensure that over 3,000 grantees are
                      accomplishing grant purposes.
                      ►The Department’s Head-Start Bureau of the
                      Administration on Children, Youth, and Families
                      implemented a Head-Start Program Review Instrument for
                      Systems Monitoring to ensure that each grantee receives a
                      full on-site review at least once every 3 years.
Department of Labor   The Department’s Occupational Safety and Health
                      Administration established the following practice:
                      ►Visiting grantees by Regional Office program staff at
                      least twice during the first year of grant award and once
                      each subsequent year.
                      The Department’s Veterans Employment and Training
                      Service established the following practices:
                      ►Holding a Post-Award Conference with grantees to
                      discuss general and special provisions, applicable federal
                      regulations, reporting requirements, corrective action plans,
                      fiscal and programmatic goals, and staff roles.
                      ►Monitoring to (1) compare current program information
                      with goals in the grant agreement, (2) review the quality
                      and effectiveness of the grant program, (3) review the
                      reliability of program and financial information reported by
                      the grantee.
National Research     ►Program managers at the Department of Energy’s Office
Council               of Biological and Environmental Research regularly visit
                      grantees and bring grantees together at regularly scheduled
                      meetings.



To effectively monitor grant agreements, we urge Interior to:

¾ Develop a “hands-on-approach” to monitoring grant awards,
  including visits to project sites, periodic meetings with grant
  recipients to review the work and address problems, attendance
  at meetings or events associated with the project, photographic
  or digital records of progress, and assessments of actions
  needed if the grantee is unable to complete the work.




                       9
The grant agreements evaluated were not well written; that is, they
did not clearly inform grantees of their responsibility to complete
grant terms and conditions or the consequences for failing to do so,
as prescribed in the Code of Federal Regulations (43 CFR 12.960).
Some agreements were so abbreviated they did not adequately
define the purpose of the grant through a clear statement of work
or require grantees to submit performance and financial reports, as
required by 43 CFR 12.951-12.952.

Interior guidance (DM 505, Chapter 2.8-2.10) and other internal
memoranda address the structure and contents of grant agreements,
but are silent on the importance of standardizing grant agreements
to require a clear statement of work defining the purpose of the
grant and penalty clauses specifying the consequences of
noncompliance with grant terms. In the absence of comprehensive
Interior grant guidance, bureaus have developed their own
guidance, which we concluded was also incomplete because the
guidance did not include all of the requirements for (1) a well-
defined statement of work describing the grant’s purpose and
actions planned to accomplish that purpose; (2) grantee
performance and financial status reports; (3) administrative and
enforceable terms and conditions, such as compliance with various
Office of Management and Budget (OMB) circulars; (4) standard
provisions, such as nondiscrimination clauses; and (5) penalties for
noncompliance with grant terms and conditions.



    Source                                   Practice
Department of      ►The Department’s Food Safety Training and Education
Agriculture        Alliance has developed resources for proposal and grant
                   writing, including guidelines for helping recipients write
                   specific statements of work.
Department of      ►The Department’s Substance Abuse Mental Health
Health and Human   Services Administration has developed a grant writing
Services           manual that includes helping recipients write specific
                   statements of work.



Based on our research, the need for well-written grant agreements
has not been fully addressed by any agency and is an area that
Interior, by developing a prototype grant agreement, could
demonstrate a best practice applicable government-wide. We
suggest that Interior:



                      10
                           ¾ Develop a prototype grant agreement which standardizes and
                             streamlines, to the extent possible, the requirements of a well-
                             written agreement and which could be easily modified by
                             individual bureaus to meet specific bureau or grantee needs.




                           Grant managers and administrators generally lacked sufficient
                           training to effectively award and monitor grants. Over two-thirds
                           of grants managers and administrators surveyed stated they had not
                           received any grant-related training within the last 4 years. Interior
                           does not require formal training4 for employees who manage and
                           administer grant awards, and without such training, simple, but
                           important, procedures can be overlooked. For example, five grant
                           project officers from one bureau said they were unaware of the
                           existence of a list of parties that have been debarred from doing
                           business with the federal government. 5 The list is easily
                           accessible from the Web site http://www.epls.gov.

                           The lack of training was also supported by an August 2004 survey
                           of about 2,000 Interior employees conducted by the Department’s
                           Office of Acquisition and Property Management in conjunction
                           with the Department of the Interior University. Twenty-one
                           percent of respondents, for example, stated they had not received
                           any training in financial assistance, and 83 percent stated that they
                           learned their job from on-the-job training. The University
                           recommended developing a core curriculum and training program
                           for federal financial assistance to ensure that all financial
                           assistance employees met core competency requirements in policy,
                           administration, and program management. The Office of
                           Acquisition and Property Management, however, has yet to
                           develop this curriculum for financial assistance.




4
  The only reference to formal training is in Interior’s Contracting Officers Warrant System Manual, which
states: “Individuals authorized to sign assistance and cooperative agreements need to have specific training
in these instruments.”
5
  The Excluded Parties List System is a Web database maintained by the General Services Administration
that identifies parties excluded throughout the federal government from receiving federal contracts, certain
subcontracts, and financial and non-financial assistance and benefits. 43 CFR, Volume l, Part 12.300-
12.325, provides Interior the authority to list excluded parties.


                                                    11
   Source                                  Practice
Environmental    The Agency has developed or proposed:
Protection       ►A Project Officer Training Manual.
Agency           ►On-line training for grants project officers, including
                 materials on pre-application review, competition, post-award
                 monitoring, and environmental outcomes.
                 ►A certification program for grants specialists, based on an
                 examination of skills and core competencies required to manage
                 grants.
Department of    The Department has developed:
Health and       ►A Grants Management Professional Development Program
Human Services   and a Grants Management Professional Certification Program.
                 ►A Grants Orientation Desk Reference for new professionals,
                 which includes a statement of the Department’s vision of what
                 constitutes quality grants management and covers the roles and
                 responsibilities of grants management specialists.
                 ►On-line training, including KnowNet, a training and
                 orientation Web site for grants management personnel; Web
                 casts; and on-line tutorials.
Department of    ►The Department’s National Research Initiative has
Agriculture      implemented an initiative that conducts annual “grantsmanship”
                 workshops to familiarize applicants and administrators with
                 grant management procedures.



We agree with the Department of the Interior University’s
recommendation to develop a core curriculum and training
program for grants employees and would go a step further to
suggest a certification program for employees awarding grants
similar to the program for assigning warrant authority to
contracting officers. To provide adequate training to grant
managers and administrators, we urge the Department to:

    ¾ Develop a core curriculum in policy, administration, and
      program management, including the processes identified in
      our framework, as well as a training program to ensure that
      all grant managers and administrators meet core
      competency requirements.

    ¾ Develop a certification program for all employees who
      award grants.




                      12
Grants managers and administrators and grantees alike face a
confusing maze of public laws, regulations, and Executive Orders
in interpreting and determining grant responsibilities. Although
some bureaus developed handbooks, these handbooks do not fully
explain or simplify bureau and grantee legal responsibilities. Grant
managers and administrators do not always know and therefore did
not always fully inform grantees of their responsibilities. For
example, we found grant agreements that lacked some of the
certifications, assurances, and responsibilities required by law or
provided the grantee with only a list of the titles of applicable laws.
As a result, grantees were treated inconsistently and potentially
held to differing legal standards. The failure to delineate
responsibilities for both granting bureaus and grantees can also
adversely affect grant performance. Clear and understandable
policies and procedures will improve the efficiency and
effectiveness of grants administration.


     Source                                 Practice
Department of        ►The Department consulted with recipient community as
Health and Human     part of its grants program simplification effort and
Services             published comments on streamlining and improvements on
                     GrantsNet Web site.
Department of        ►The Department’s Office of Departmental Grants
Housing and Urban    Management and Oversight has streamlined grants
Development          management by providing grantees access to an application
                     demonstration, policies, procedures, and grant forms, and
                     OMB Circulars and cost principles.



To simplify requirements, including Departmental policies and
procedures, we urge Interior to:

    ¾ Develop an Interior-wide electronic grants handbook that
      standardizes and simplifies crosscutting legal and Interior
      requirements for both granting bureaus and grantees.




Our evaluation of 12 grant programs revealed that results could not
be demonstrated because program goals were not measurable. The
Government Performance and Results Act requires federal
agencies to set outcome-focused goals and report to Congress
annually on progress toward meeting these goals. Grants are a


                      13
major source of funding to public organizations that, in turn, help
Interior accomplish its mission. Interior’s Strategic Plan for Fiscal
Years 2003-2008 recognizes grants as a critical component of
accomplishing Interior’s mission. To report on progress toward
meeting the goals of its grant programs, Interior must be able to
demonstrate results achieved under grants and link the results to
Interior’s mission.

Measurable goals enable Interior, its bureaus, OMB, and Congress
to establish performance expectations and then assess actual
performance against these expectations. We acknowledge that
while establishing measurable goals for grant programs can be
difficult, such goals are essential for Interior to demonstrate
results.


     Source                                  Practice
Department of State   ►The Department’s Fullbright Senior Scholarship Program
                      established clear Program goals and outcomes—SMART
                      (Specific, Measurable, Attainable, and Results-oriented),
                      expected to be achieved within a reasonable time frame.
National Research     ►The Council develops well-defined milestones, including
Council               a clearly defined end, for all programs.
                      ►The Council defines a relevant grants program as one
                      that funds the projects that most effectively further the
                      goals of the program and meet national needs.



To ensure that grant managers work towards establishing
measurable goals, we urge Interior to require that:

     ¾ Goals for grant programs established by bureau and Interior
       Office heads be specific, measurable, attainable, and
       results-oriented and met within a reasonable time frame.

     ¾ Grants managers and administrators use these goals to
       monitor grant performance and incorporate results into
       performance ratings.




Establishing a grants management framework that embodies these
seven key processes is essential for effective grants management.
The suggested actions are designed to help establish the guidance
and direction necessary to create a culture of accountability and
stewardship for grant programs within Interior. We believe


                       14
Interior’s Federal Assistance Working Group, in conjunction with
the Office of Acquisition and Property Management, is the
appropriate organization to oversee implementation of a grants
management framework and to establish procedures for evaluating
grant performance under the framework. To ensure an overall
Interior vision for grants management, the Working Group should
require that bureaus periodically review their grants management
processes and identify opportunities for improvement. As the
Federal Assistance Working Groups continues its work to improve
grants management, we will extend our cooperation and assistance
in this effort.




                    15
This Page Intentionally Left Blank




               16
      Appendix 1




                          For the purposes of the report, we defined grants as all federal
                          financial assistance that supports or stimulates accomplishing a
                          public purpose. Grants include cooperative and other agreements
                          in the form of money or property in lieu of money given by the
                          federal government to eligible recipients.



                          We focused our evaluation on grant management processes and the
                          $1.5 billion annually managed by Interior’s bureaus during fiscal
                          years 2001 through 2003, with the objective of determining
                          whether the bureaus promoted public participation and benefit in
                          their administration of grant programs. As part of our evaluation,
                          conducted from December 2003 through October 2004, we visited
                          and contacted Departmental and bureau offices located throughout
                          the country (see Sites Visited or Contacted).

                          We focused on grant management processes developed by FWS,
                          BOR, USGS, and NPS6 to fully promote public participation in and
                          benefit from grant awards, including soliciting competition,
                          training of bureau employees, adequacy of grant agreements,
                          monitoring grantees, accurate data, policies and procedures, and
                          measurable grant goals. We also reviewed 92 grants totaling about
                          $28 million.

                          Our evaluation was conducted, as applicable, in accordance with
                          the Quality Standards for Inspections, issued by the President’s
                          Council on Integrity and Efficiency, and, accordingly, included
                          such tests and evaluation procedures that were considered
                          necessary to accomplish our objective.

                          We interviewed numerous Interior and bureau officials about
                          grants management. We also reviewed Congressional laws and
                          regulations; OMB Circulars; Departmental and bureau specific
                          policies and procedures, including selected bureau financial and
                          program information; Comptroller Decisions; and past OIG, GAO,

6
 We did not evaluate grants awarded by the Bureau of Land Management (BLM) or the Minerals
Management Service (MMS) because these agencies primarily award cooperative agreements, which are
the subject of a future Office of Inspector General (OIG) report. We also did not evaluate grants awarded
by the Office of Surface Mining or the Bureau of Indian Affairs because these agencies primarily distribute
funds to states and Native American governments in a “pass through” manner.


                                                    17
and other federal and non-federal reports related to grants
management to find promising grant management practices (see
Appendix 2). In addition, we developed an integrated management
framework for grants management within Interior and summarized
the critical grants management processes that should be included in
this framework.

We also evaluated whether Interior bureaus had implemented a
system of internal controls to have reasonable assurance that grant
management processes fully promoted public participation and
benefit, produced reliable performance and financial information,
and complied with laws and regulations.




                     18
                              Sites                                        Location
Office of Acquisition and Property Management                  Washington, D.C.
BLM
California State Office                                        Sacramento, California
Washington Office, Audit Liaison*                              Washington, D.C.
BOR
Great Plains Region                                            Billings, Montana
Mid-Pacific Region                                             Sacramento, California
Lower Colorado Region*                                         Boulder City, Nevada
Pacific Northwest Region*                                      Boise, Idaho
Bureau-wide Audit Liaison*                                     Lakewood, Colorado
NPS
Intermountain Region                                           Lakewood, Colorado
 Contracting Support Office                                    Santa Fe, New Mexico
 Contracting Support Office                                    Lakewood, Colorado
Northeast Region                                               Philadelphia, Pennsylvania
Pacific West Region                                            Oakland, California
Southeast Region                                               Atlanta, Georgia
Great Smoky Mountains National Park                            Tennessee
Washington Office, Audit Liaison*                              Washington, D.C.
FWS
Mountain-Prairie Region                                        Lakewood, Colorado
Northeast Region                                               Hadley, Massachusetts
Southeast Region                                               Atlanta, Georgia
 Asheville Ecological Services Field Office                    Ashville, North Carolina
 Athens Ecological Services Field Office                       Athens, Georgia
 St. Marks National Wildlife Refuge*                           St. Marks, Florida
 Mississippi Ecological Services Field Office*                 Jackson, Mississippi
Southwest Region                                               Albuquerque, New Mexico
 Division of Bird Habitat Conservation                         Arlington, Virginia
 Division of Fish &Wildlife Management                         Arlington, Virginia
  Assistance and Habitat Restoration
Washington Office, Audit Liaison*                              Arlington, Virginia
USGS
Office of Acquisition and Grants Branch, Central Region        Lakewood, Colorado
Office of Acquisition and Grants, Eastern Region               Reston, Virginia
National Center for Earth Resources Observation and Science*   Sioux Falls, South Dakota
Washington Office Audit Liaison*                               Washington, D.C.
MMS
Washington Office, Audit Liaison*                              Washington, D.C.


 * Contacted only




                                              19
This Page Intentionally Left Blank




               20
Appendix 2




         We reviewed the following documents related to grants
         management.



         ¾ May 2002 - Administration of Grants – Better Practice Guide.
           The Domestic Working Group, composed of representatives
           from federal, state, and city governments, is using this guide as
           an example of best practices in grant administration.



         ¾ November 2004 - Fiscal Year 2004 Annual Report on
           Performance and Accountability. The Independent Auditors’
           Report (KPMG) on Interior’s Consolidated Financial
           Statements recommended that Interior (1) establish a process to
           verify receipt of single audit reports within 9 months of award
           recipients’ year-end, (2) issue management decisions on audit
           findings within 6 months after receiving single audit reports,
           and (3) verify that award recipients had taken the appropriate
           actions to resolve audit findings. The auditors stated Interior
           had not fully developed controls to monitor grantees and detect
           and prevent misuse of federal funds in the following areas:

             o Maintaining a grant proposal and award database with
               information on (1) proposals; (2) grantee name and
               number; (3) date of award; (4) amount; (5) funds expended;
               (6) a determination on whether grantee was subject to the
               Single Audit Act Amendments of 1996; and if so, (7) data
               on audit reports submitted under the Act, including date
               received, period covered, findings, and management
               decisions on findings.

             o Ensuring that grantees submitted financial status reports.
               Interior had not received the required reports for 20 of
               32 transactions tested.

             o Ensuring that grantees completed single audits and
               submitted reports within 9 months of the grantees’ year-
               end. Interior had not received timely reports for 19 of
               30 grants tested and any reports from 20 organizations.


                              21
   o Issuing management decisions on audit findings within
     6 months after receipt of audit reports and ensuring that
     grantees took appropriate and timely corrective action.

¾ November 2003 - Fiscal Year 2003 Annual Report on
  Performance and Accountability. The Independent Auditors’
  Report (KPMG) on Interior’s Consolidated Financial
  Statements recommended that Interior (1) establish a process to
  verify receipt of single audit reports within 9 months of award
  recipients’ year-end, (2) issue management decisions on audit
  findings within 6 months after receiving single audit reports,
  and (3) verify that award recipients had taken the appropriate
  actions to resolve audit findings. The auditors stated Interior
  had not fully developed controls to monitor grantees and detect
  and prevent misuse of federal funds in the following areas:

   o Ensuring that grantees completed single audits and
     submitted reports within 9 months of the grantees’ year-
     end.

   o Issuing management decisions on audit findings within
     6 months after receipt of audit reports and ensuring that
     grantees took appropriate and timely corrective action.

¾ September 2003 - Interior’s Strategic Plan for Fiscal Years
  2003-2008. Prepared, in part, to meet requirements of the
  Government Performance and Results Act to make government
  agencies more accountable, this document states how the
  desired results of Interior programs will meet the agency’s four
  mission areas.

¾ July 2003 - This memorandum by Deputy Assistant Secretary
  for Budget and Finance set policy on Financial Status Report
  Requirements Related to Grants to address KPMG’s statement
  that Interior’s monitoring of grant recipients was insufficient.

¾ October 2002 - Citizen-Centered Governance: Customer
  Value through Accountability, Modernization, and Integration.
  Second Edition: A Progress Report. Issued by the Assistant
  Secretary for Policy, Management and Budget, this report
  outlined Interior’s progress toward meeting the President’s
  Management Agenda for citizen-centered government.




                     22
¾ July 2004 - National Park Service Management of Selected
  Grants in Hawaii (No. P-IN-NPS-0105-2003). By failing to
  require adequate and timely performance and financial status
  reports, NPS could not ensure that grants awarded under the
  Native Hawaiian Culture and Arts Program were fully
  executed. NPS also did not follow up on recommendations
  made by the Hawaii State Auditor to correct serious program
  and financial mismanagement of grants awarded under the
  Historic Preservation Fund. NPS agreed to be more proactive
  in managing these grants and enforcing reporting requirements,
  and the report’s five recommendations were resolved and
  implemented.

¾ September 2003 - Report on Grants Administered by the
  Office of Insular Affairs (No. 2003-I-0071). The report cited
  the (1) lack of a centralized grant-tracking system; (2) failure to
  obtain documentation to verify project progress or to impose
  consequences for not meeting grant requirements; and (3) lack
  of effective management leadership and oversight as
  weaknesses in Office of Insular Affairs monitoring that
  resulted in projects not being completed on time, delays in or
  the failure to provide essential services, and the waste of
  federal funds awarded to improve the economies and self-
  sufficiency of Insular Area governments. The eight
  recommendations were resolved and implemented.



¾ October 2004 - Financial Management - Improved Financial
  Systems are Key to FFMIA Compliance (GAO-05-20). The
  financial management systems of most agencies could not
  routinely produce the reliable and timely financial information
  essential for successful financial management under the
  Federal Financial Management Improvement Act. Interior’s
  need to make over 180 financial adjustments to reconcile
  financial records at year end was cited as an example of the
  consequences of poor financial practices.

¾ June 2004 - Federal Budget, Agency Obligations by Budget
  Function and Object Classification, Federal Fiscal Year 2003
  (GAO-04-834). The report presented quantitative data on
  fiscal year 2003 obligations from several perspectives and
  levels of detail that can be used to examine spending patterns
  against federal mission areas.



                     23
¾ August 2003 - Grants Management – EPA Needs to
  Strengthen Efforts to Address Persistent Challenges (GAO-3-
   846). Despite efforts to improve grants management, the
  Environmental Protection Agency continues to face four key
  management challenges: (1) selecting the most qualified
  applicants, (2) monitoring effectively, (3) measuring results,
  and (4) effectively managing grants staff and resources.

¾ April 2003 - Testimony on Federal Assistance - Grant System
  Continues to be Highly Fragmented (GAO-03-718T). Despite
  attempts to implement Public Law 106-107 by streamlining the
  flow of information on various grants and developing uniform
  application and reporting procedures, the federal grant system
  is highly fragmented, creating potentially significant
  duplication and overlap among federal programs. The
  increased number and dollar amounts of grants awarded since
  the 1960s has resulted in a complex system requiring federal
  grant recipients to navigate over 600 federal grant programs to
  find project financing funds. GAO suggested consolidating
  programs with overlapping missions and objectives by
  (1) combining multiple programs into block grants,
  (2) establishing performance partnerships, and (3) waiving
  authority of federal funding restrictions and program rules
  when sufficiently justified by state or local governments.

¾ March 2001 - Performance and Accountability. The
  combined performance and accountability report assessed
  fiscal year 2000 accomplishments and outlined fiscal year 2001
  and 2002 goals. The goals included a discussion of leveraging
  resources and services through collaboration.

¾ May 1991 - Management Practices: U.S. Companies Improve
  Performance through Quality Efforts (GAO/NSIAD/91-190).
  An examination of the impact of formal total quality
  management practices on the performance of U.S. companies
  found these practices did have a beneficial effect on overall
  corporate performance and both employee and customer
  satisfaction.

¾ September 1986 - Discretionary Grants, Opportunities to
  Improve Federal Discretionary Award Practices (GAO/HRD-
  86-108). Competition in discretionary grant programs
  identifies and funds the best projects proposed by applicants,
  thereby effectively achieving program objectives.




                    24
¾ September 2003 - Management Framework: Award
  Monitoring (OIG 03-2-015). The report suggested principles
  and methods used by both federal and private grant-making
  organizations to implement a strategic management framework
  for monitoring award instruments.



¾ February 2004 - Agency Obligations by Object Class, Fiscal
  Year 2005. The report cited $4.5 billion as Interior’s share of
  grants for fiscal year 2003.

¾ February 2004 - Budget of the United States Government-
  Analytical Perspectives for Fiscal Year 2005. Interior’s grants
  to states and other governments totaled $3 billion.




   ¾   Department of Agriculture
       http://policy.nrcs.usda.gov/scripts/lpsiis.dll/H/H_120_600_
       B.htm
   ¾   Department of Health and Human Services
       http://grants2.nih.gov/grants/oer.htm
   ¾   Department of Labor
       http://www.dol.gov/vets/grants/Final_VETS_Guide-
       linked.pdf
   ¾   Environmental Protection Agency
       http://www.epa.gov/cgi-bin/epaprintonly.cgi
   ¾   National Research Council
       http://books.nap.edu/books/030907083X/html/index.html


   ¾ Department of Commerce
     http://www.ntia.doc.gov/top/granteeresources/handbooks/H
     andbook2004.html
   ¾ Department of Health and Human Services
     http://www.hrsa.gov/grants/default.htm
     http://www.headstartinfo.org/pdf/2005PRISMGuide.pdf
   ¾ Department of Labor
     http://www.osha.gov/pls/oshaweb/owadisp.show_documen
     t?p_table=DIRECTIVES&p_id=1887
     http://www.dol.gov/vets/grants/Final_VETS_Guide-
     linked.pdf


                     25
¾ National Research Council
  http://books.nap.edu/books/0309089387/html/


¾ Department of Agriculture
  http://www.fstea.org/resources/grantwriting.html
¾ Department of Health and Human Services
  http://www.alt.samhsa.gov/grants/TAManual/Module5SA
  MHSA-06.htm


¾ Department of Health and Human Services
  http://www.knownet.hhs.gov/grants/new.htm
  http://www.samhsa.gov/grants/index.aspx
  http://www.knownet.hhs.gov/grants/orientDR
¾ Environmental Protection Agency
  http://www.epa.gov/ogd/EO/finalreport/pdf
¾ National Research Council
  http://books.nap.edu/books/0309089387/html/


¾ Department of Health and Human Services
  http://www.hhs.gov/grantsnet/
¾ Department of Housing and Urban Development
    http://www.hud.gov/offices/adm/grants/dgms/index.cfm


¾ Department of State
  http://www.exchanges.state.gov/education/rfgps/feb25rfgp.
  htm
¾ National Research Council
  http://books.nap.edu/html/globalocean/
  http://books.nap.edu/catalog/9844.html




                 26
